October 6, 2014

The Honorable Chuck Hagel
Secretary of Defense

Dear Secretary Hagel:

Thank you for your department’s response to my concerns regarding the planned provision of the C-130H
cargo planes to the Afghan Air Force (AAF). In my July 10, 2014, letter, I questioned the need for two
additional C-130Hs when the AAF, based on the information we received, were underutilizing the two it
already had in the inventory. Consequently, I requested that the Department of Defense (DOD) review the
AAF’s medium-airlift requirement and its ability to fully use the existing C-130Hs before providing
additional capabilities.

In your response, you wrote that, based on historical mission-capable rates and projected maintenance
and inspection schedules, the AAF requires at least three C-130Hs to ensure one operational aircraft at all
times. To illustrate, you wrote that one of the two C-130Hs in the AAF inventory had been outside
Afghanistan since late July for inspection, and had the second aircraft become unavailable, the AAF would
have been without its medium-lift capability. While our review found that the AAF was flying the two aircraft
at only 48 percent of their flight-hour capacity, we recognize the risk if the one remaining C-130H were to
unexpectedly become unavailable. Therefore, we agree with your decision to provide the AAF with a third C-
130H.

As for the fourth aircraft, I am pleased that DOD concurs with the recommendation to defer the decision on
its delivery until a requirements review is completed. I hope that the AAF will continue to improve the
utilization rates of its C-130Hs with DOD’s assistance. The potential savings—about $40.5 million ($19.8
for the aircraft itself and $20.7 million for maintenance, parts, training, and aircraft modifications) through
2017—of the cancelled fourth aircraft is significant and could allow the department to put those savings to
better use. My priority has always been ensuring that taxpayer monies spent on Afghanistan reconstruction
are used efficiently and effectively.

I request that your department share with us the results of the AAF medium-airlift requirements review
once it is completed. Should you have any questions or need additional information, please contact Ryan
T. Coles, Assistant Inspector General for Audits & Inspections, at
                         . Thank you in advance for your attention to this matter.

Sincerely,




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction

Enclosures:
I: U.S. Department of Defense Response to SIGAR-14-80-AL dated September 19, 2014
II: SIGAR-14-80-AL: Afghan Air Force C-130 Aircraft dated July 10, 2014
ENCLOSURE I: U.S. DEPARTMENT OF DEFENSE RESPONSE TO SIGAR-14-80-AL
DATED SEPTEMBER 19, 2014




SIGAR-14-80a-AL Afghan Air Force C-130 Aircraft Response      Page 2
ENCLOSURE II: SIGAR-14-80-AL: AFGHAN AIR FORCE C-130 AIRCRAFT DATED
JULY 10, 2014




SIGAR-14-80a-AL Afghan Air Force C-130 Aircraft Response         Page 3
SIGAR-14-80a-AL Afghan Air Force C-130 Aircraft Response   Page 4
SIGAR-14-80a-AL Afghan Air Force C-130 Aircraft Response   Page 5
SIGAR-14-80a-AL Afghan Air Force C-130 Aircraft Response   Page 6
SIGAR-14-80a-AL Afghan Air Force C-130 Aircraft Response   Page 7
SIGAR-14-80a-AL Afghan Air Force C-130 Aircraft Response   Page 8
